APPENDIX A

♦

Case 3:18-cv-01005-BAJ-SDJ

1*

Document 22 01/21/20 Page 1 of 6
n

Pftncl'jc
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

AKANDO DUCKSWORTH

CIVIL ACTION

VERSUS
HAL MACMURDO, ET AL.

NO.: 18-1006-BAJ-RLB

RULING AND ORDER
Before the Court is the Motion to Dismiss (Doc. 16) filed by Defendants Dr.
Hal MacMurdo, Jason Kent, and Cherryl Washington.
opposition (Doe. 18).

Plaintiff has filed an

For the reasons that follow, the Motion (Doc. 16) is

GRANTED.
I.

BACKGROUND
Plaintiff is an inmate incarcera ted at the Dixon Correctional Institute. (Doc.

4-1 at p. 3).

Plaintiff alleges that he suffers from Recurrent Respiratory

Papillomatosis and Dysphonia, which will result in the permanent loss of his voice if
left untreated. (Doc. 18 at p. 1). Plaintiff alleges that on March 20, 2017, a doctor at
the University Medical Center (UMC) recommended that he receive speech therapy
twice a week. (Doc. 4-1 at p. 3). Plaintiff alleges that he received speech therapy
sessions twice a week from April 2017 to December 2017. (Id. at p. 5). However, in
December 2017, Plaintiff alleges that UMC cancelled his sessions due to a lack of
improvement.in his vocal quality but advised Dr. MacMurdo that it would be willing
to continue the sessions to treat Plaintiffs neck pain. Id. Plaintiff alleges that Dr.
1

Case 3:l8-cv-0l005-BAJ-SDJ

Document 22 01/21/20 Page 2 of 6

MacMurdo did n.ot renew the sessions because he did not “see a financial benefit to
the prison/’ Id. Plaintiff alleges that since the cancellation of his sessions, he has
been provided with Ibuprofen, muscle relaxers, sore throat lozenges, and neck
exercises. Id. Plaintiff alleges that on March 21, 2018, he was treated by a doctor at
UMC. Id. Plaintiff requested that his sessions be continued but was informed that
he had a poor prognosis for recovery and that the sessions therefore would not help.
Id. Plaintiff asked the doctor to refer him to a voice specialist but was told that no
specialist would see him.

Id.

Plaintiff sued Kent, the Warden of the Dixon

Correctional Institute, Washington, an Administrative Remedy Procedure Screening
Officer, and Dr. MacMurdo under § 1983.
II.

LEGAL STANDARDS
A. Federal Rule of Civil Procedure 12(b)(1)
Under Federal Rule of Civil Procedure 12(b)(1), a claim is “properly dismissed

for lack of subject-matter jurisdiction when the court lacks the statutory or
constitutional power to adjudicate the claim.” In re FEMA Trailer Formaldehyde
Products Liab. Litig, 668 F.3d 281, 286 (5th Cir. 2012) (quoting Home Builders Ass’n,
Inc. v, City of Madison, 143 F.3d 1006, 1010 (5th Cir. 1998)). In determining its
jurisdiction, the Court may consider “(1) the complaint alone, (2) the complaint
supplemented by undisputed facts evidenced in the record, or (3) the complaint
supplemented by undisputed facts plus the [Cjourt’s resolution of disputed facts.”
Carroll v. Abide, 788 F.3d 502, 504 (5tlx Cir. 2015) (citation omitted).

2

Case 3:18-cv-01005-BAJ-SDJ

Document 22 01/21/20 Page 3 of 6

B. Federal Rule of Civil Procedure 12(b)(6)
To overcome Defendants' motion to dismiss, Plaintiff must plead a plausible
claim for relief. See Romero v. City of Grapevine, Tex., 888 F.3d 170, 176 (5th Cir.
2018) (citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)). A claim is plausible if it is
pleaded with factual content that allows the Court to reasonably infer that
Defendants are liable for the misconduct alleged. See Edionwe v. Bailey, 860 F.3d
287, 291 (5th Cir. 2017) (citing Iqbal, 556 U.S. at 678). The Court accepts as true the
well-pleaded facts of Plaintiffs amended complaint and views those facts in the light
most favorable to him. See Midwest Feeders, Inc. v. Bank of Franklin, 886 F.3d 507,
513 (5th Cir. 2018).
III.

DISCUSSION
A. Defendants’ Motion Under Rule 12(b)(1)
Defendants assert that Plaintiffs claims against them in their official capacity

must be dismissed due to the Eleventh Amendment. The Eleventh Amendment
immunity defense is a question of subject matter jurisdiction. United States v. Texas
Tech University, 171 F.3d 279, 286 n. 9 (5th Cir. 1999). The Eleventh Amendment
bars a state’s citizens from filing suit against the state or its agencies in federal court.
Cozzo v. Tangipahoa Parish Counsel-President Gov't, 279 F.3d 273, 280 (5th Cir.
2002) (citation omitted).

Lawsuits against state officials acting in their official

capacity are generally barred by the Eleventh Amendment.
Louisiana, 2004 WL 2694899, at *3 (E.D. La. Nov. 22, 2004).

3

Goins v. State of

Case 3:l8-cv-0l005-BAJ-SDJ

Document 22

01/21/20 Page 4 of 6

Defendants argue that to the extent that Plaintiff seeks monetary damages
against them in their official capacity, those claims must be dismissed. Plaintiff
concedes that the Eleventh Amendment protects state officials sued in their official
capacity.

However, the Court construes Plaintiffs complaint as a suit against

Defendants in their personal capacity under 42 U.S.C. § 1983.

Accordingly,

Defendants’ Rule 12(b)(1) motion is denied.
B. Defendants’ Motion Under Rule 12(b)(6)
1. Failure to State a Claim with Regard to Kent and Washington
Defendants argue that Plai ntiff lias failed, to state a claim with regard to Kent
and Washington specifically. “Under section 1983, supervisory officials are not liable
for the actions of subordinates on any theory of vicarious liability.” Thompkins v.
Belt, 828 F.2d. 298, 303 (5th Cir. 1987). “A. supervisory official may be held liable
under section 1983 only if (1) he affirmatively participates in the acts that cause the
constitutional deprivation, or (2) he implements unconstitutional policies that
causally result in the constitutional injury.”

Gates v. Tex. Dep't of Pi'otective &

Regulatory Servs., 537 F,3d 404, 435 (5th Cir. 2008).
Kent is the Warden of the Dixon Correctional Institute. Washington is an
Administrative Remedy Procedure Screening Officer.

Plaintiff alleges that

Washington ignored a complaint that Plaintiff filed against Dr. MacMurdo. (Doc. 41 at p, 7). Plaintiff also alleges that Kent was m ade aware of Plaintiff’s grievances
against Dr. MacMurdo. Id. The alleged constitutional deprivation or injury at issue
is the failure to renew Plaintiffs sessions. Plaintiffs allegations against Kent and

4

Case 3:18-cv-01Q05-BAJ-SDJ

Document 25

03/06/20 Page 1 of 1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

AKANDO DUCKSWORTH

CIVIL ACTION

VERSUS
HAL MACMURDO, ET AL.

NO.: 18-1005-BAJ-RLB
FINAL JUDGMENT

Considering the Court’s Ruling and Order (Doc. 22), and in accordance with
Federal Rule of Civil Procedure 58,
IT IS ORDERED AND ADJUDGED that this action is DISMISSED with
prejudice.

Baton Rouge, Louisiana, this

day of March, 2020.

JUDGE BRIAN
JACKSON
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA

APPENDIX B

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

June 12, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-30106

Akando Ducksworth v. Hal MacMurdo, et al
USDC No. 3:18-CV-1005

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5™ Cir. R.s 35, 39, and 41 govern
costs, rehearings, and mandates.
5th Cir. R.s 35 and 40 require
you to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5™ Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 20-30106
Summary Calendar

FILED
June 12, 2020
Lyle W. Cayce
Clerk

AKANDO DUCKSWORTH,
Plaintiff—Appellant,
versus
HAL MACMURDO, Head Doctor at Dixon Correctional Institute;
JASON KENT, Warden, Dixon Correctional Institute;
CHERRYL WASHINGTON, ARP Screening Officer,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Louisiana
No. 3-.18-CV-1005

Before SMITH, COSTA, and HO, Circuit Judges.
PER CURIAM:*
Akando Ducksworth, Louisiana prisoner #714207, moves to proceed in

Pursuant to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion
should not be published and is not precedent except under the limited circumstances set forth
in 5th Circuit Rule 47.5.4.

No. 20-30106
forma pauperis (“IFP”) on appeal from the dismissal of his 42 U.S.C. § 1983
complaint. Ducksworth asserted that the defendants were deliberately indif­
ferent to his serious medical needs related to conditions that affect his ability
to speak and that cause pain in his neck. On the defendants’ motion, the
district court dismissed for failure to state a claim under Federal Rule of Civil
Procedure 12(b)(6).
By moving to proceed IFP, Ducksworth is challenging the district court’s
certification that his appeal is not taken in good faith. See Baugh v. Taylor,
117 F.3d 197, 202 (5th Cir. 1997). Our inquiry into good faith “is limited to
whether the appeal involves legal points arguable on their merits (and there­
fore not frivolous).” Howard v. King, 707 F.2d 215, 220 (5th Cir. 1983) (internal
quotation marks and citation omitted). We review de novo a dismissal under
Rule 12(b)(6). See McLin v. Ard, 866 F.3d 682, 688 (5th Cir. 2017).
As to defendants Kent and Washington, the district court determined
that Ducksworth’s allegations did not establish their participation in the
alleged denial of medical care. A defendant “must be either personally involved
in the acts causing the deprivation of a person’s constitutional rights, or there
must be a causal connection between an act of the [defendant] and the consti­
tutional violation sought to be redressed.” Lozano v. Smith, 718 F.2d 756, 768
(5th Cir. 1983). Ducksworth’s complaint shows that his factual allegations do
not demonstrate the personal involvement of these defendants in the alleged
denial of medical care or a causal connection between their acts and the alleged
denial of medical care. See id. Ducksworth has failed to demonstrate that his
appeal involves legal points arguable on the merits insofar as it concerns Kent
and Washington. See Howard, 707 F.2d at 220.
As to his claim against Dr. MacMurdo, Ducksworth likewise fails to
make the requisite showing. See id. According to his complaint, Ducksworth
2

No. 20-30106
received speech therapy at the University Medical Center (“UMC”) for several
months, but that therapy was ineffective in dealing with his voice problems,
and a doctor at UMC concluded that more therapy would not restore Ducksworth’s voice. Although UMC offered to provide additional therapy to help
alleviate Ducksworth’s neck pain, MacMurdo decided against that course of
action and instead treated Ducksworth with Ibuprofen and throat lozenges; he
also prescribed muscle relaxers and throat exercises. Even if the treatment
chosen by MacMurdo was unsuccessful, the facts alleged do not establish delib­
erate indifference. See Varnado, 920 F.2d at 321. Although Ducksworth dis­
agrees with MacMurdo’s decision not to send him to UMC for more therapy, a
prisoner’s disagreement with his medical treatment is not sufficient to state a
claim under § 1983. See id. Further, even if MacMurdo did not follow the
treatment recommendation of another physician, that does not establish delib­
erate indifference. See Stewart v. Murphy, 174 F.3d 530, 535 (5th Cir. 1999).
The appeal lacks arguable merit and is therefore frivolous. See Howard,
707 F.2d at 220. Accordingly, the motion for leave to proceed IFP on appeal is
DENIED, and the appeal is DISMISSED as frivolous. See Baugh, 117 F.3d
at 202 n.24; 5TH ClR. R. 42.2. Ducksworth’s motion for appointment of counsel
is also DENIED because this case does not present exceptional circumstances
warranting it. See Cooper v. Sheriff, Lubbock Cty., Tex., 929 F.2d 1078, 1084
(5th Cir. 1991).
The district court’s dismissal of Ducksworth’s § 1983 action for failure to
state a claim and this court’s dismissal of the instant appeal as frivolous both
count as strikes for purposes of 28 U.S.C. § 1915(g). See Coleman v. Tollefson,
135 S. Ct. 1759, 1763-64 (2015); Adepegba v. Hammons, 103 F.3d 383, 388 (5th
Cir. 1996), abrogated in part on other grounds by Coleman, 135 S. Ct.
at 1762-63. Ducksworth is WARNED that if he accumulates three strikes, he

3

No. 20-30106
will not be able to proceed IFP in any civil action or appeal filed while he is
incarcerated or detained in any facility unless he is under imminent danger of
serious physical injury. See § 1915(g).

4

Sincerely,
LYLE W. CAYCE,
//!
%

By:
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Mr. Andrew Blanchfield
Mr. Akando Ducksworth

Additional material
from this filing is
available in the
Clerk's Office.

